Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services
Grants to the Brea Police Department California
GR-90-01-011

July 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Brea, California Police Department (BPD).  The purpose of the grants is to enhance community policing.  The BPD was awarded a total of $300,000 to hire 4 new police officers.

We reviewed the BPD's compliance with seven essential grant conditions.  We found the following grant conditions acceptable:  Grantee's budgeting practices, hiring of police officers, source of matching funds, reimbursement requests, retention efforts, and Community policing activities.  However, we found deficiencies in the grantee's status reporting as identified below. 

Several of the BPD status reports were either not accurate or not filed timely.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.